Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 DISTRIBUTING COLLECTED CHILD
SUPPORT TO FAMILIES EXITING TANF




                   JANET REHNQUIST
                    Inspector General

                     OCTOBER 2001
                     OEI-05-01-00220
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago Regional office prepared this report under the direction of William C. Moran,
Regional Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                              HEADQUARTERS

Emily Melnick, Team Leader               Joan Richardson, Program Specialist

Kristen Masse, Program Analyst

Jordan Heinz, Intern

Margo Rodriguez, Program Inspections Assistant 





   To obtain copies of this report, please call the Chicago Regional Office at (312) 353-4124.
         Reports are also available on the World Wide Web at our home page address:

                                  http://www.hhs.gov/oig/oei
                            EXECUTIVE                     SUMMARY

PURPOSE

           To evaluate the process State Child Support Enforcement agencies use to transfer child
           support to families leaving Temporary Assistance to Needy Families.

BACKGROUND

           When families apply for Temporary Assistance to Needy Families (TANF), Federal law
           requires the families to assign their right to child support payments to the State and
           cooperate with child support enforcement efforts. By law, the “assignment” of child
           support to the State is supposed to end upon a family’s exit from TANF. The State
           Disbursement Unit must send support collections to the family within two business days of
           receipt in the month following TANF exit.1

           Families may be most vulnerable during the months before and immediately following the
           end of their receipt of TANF assistance. Payment of child support at this juncture is likely
           to have a great impact on the success of the transition from TANF to self-sufficiency.

           We collected data through in-depth site visits in five States and a survey of 51 State
           TANF and Child Support Enforcement agencies.

FINDINGS

States Pay Less in TANF Cash Assistance Than They Collect in Child Support for
Some Current TANF Families

           In the five case-study States, 47 current TANF recipients experienced at least one month
           when their TANF cash assistance amount was less than the amount of child support paid
           by the non-custodial parent. Only in one case-study State were these families eligible to
           receive the difference between their TANF grant and the collected child support.

           None of the case-study States have automated systems designed to automatically close
           TANF cases when collected child support exceeds the TANF grant, nor do they distribute
           this excess support to current TANF families. Without such State systems in place to
           automatically close these cases, TANF recipients receive less money and accrue
           unnecessary months on their TANF life-time clocks.




Distributing Child Support to Families Exiting TANF   i                                 OEI-05-01-00220
After TANF Exit, Eight Percent of Custodial Parents in Our Case-Study States
Experienced Child Support Payment Delays, and Three Percent Were Underpaid

           In each of the five States we chose for our case-studies, we conducted case file reviews to
           determine whether child support payments were correctly distributed to families after
           TANF exit. Payment delays and underpayments ranged from 2 of 30 cases (7 percent) in
           one State to 8 of 27 cases (30 percent) in another State.

Eleven States Report They Were Not Always Able to Accurately Transfer Child
Support. Problems May Increase When Caseworkers Must Intervene.

           Nationally, eleven States report difficulties accurately transferring child support to families
           leaving TANF. These impediments include problems with automated interfaces, incorrect
           client addresses and caseworker intervention in the transfer process.

           Twenty-eight of the 51 States surveyed report problems with their automated interfaces.
           Interface problems, including incompatible design of State TANF and Child Support
           Enforcement agencies’ automated systems and timing of information exchanges, may
           cause child support payment delays and underpayments after TANF exit.

           Reliance on child support caseworkers to transfer collected payments, as opposed to an
           automated process, is plausibly associated with increased payment error rates.

Child Support Enforcement Agencies Have No Systematic Oversight of the
Transfer Process in Most Case-Study States

           According to State child support staff in all five case-study States, these States have no
           policy requiring systematic review of TANF leavers’ child support distribution. Under
           federally-mandated State self-assessments, State CSE agencies are not required to
           specifically sample cases where TANF case status changed. Furthermore, State self-
           assessments are not designed to catch inaccurate child support distribution when a client
           leaves TANF cash assistance.


RECOMMENDATIONS

           The Office of Child Support Enforcement and the Office of Family Assistance should
           ensure that State child support and TANF systems effectively share information about
           their joint caseload and accurately and efficiently disburse payments to TANF leavers. We
           believe comprehensive automated systems are the best way to achieve desired outcomes.




Distributing Child Support to Families Exiting TANF   ii                                  OEI-05-01-00220
           We recommend that the Office of Child Support Enforcement and the Office of Family
           Assistance provide technical assistance to the State Child support and TANF agencies to:

                       C	         Improve automated system interfaces’ capacity to accurately and efficiently
                                  share caseload information and automatically redistribute collected child
                                  support,

                       C	         Ensure timely disbursement of collected support by emphasizing custodial
                                  parent address verification in the TANF discontinuation notice and the
                                  Child Support Enforcement continuing services notice,

                       C          Implement policies and procedures for handling excess child support, and

                       C	         Improve accountability through a State self-assessment process that
                                  addresses the outcome of collections and distributions for TANF leavers.

AGENCY COMMENTS

           The Administration for Children and Families (ACF) reviewed this report and agreed with
           most of our findings and recommendations. Where appropriate, we changed the report to
           reflect their comments. The full ACF comments are contained in the Appendix.

           The ACF agreed with our recommendation that OCSE and OFA should work together to
           provide additional assistance to improve State agencies’ automated interfaces’ capacity, as
           well as help States implement policies and procedures for handling excess support. In
           addition, the ACF agreed that some of the findings and recommendations from this report
           could be included among the topics considered for Special Improvement Project grants in
           the future.

           The ACF questioned why the waiting period of two months for automatic TANF closure
           was specified in our recommendation. While cases could be closed on a monthly basis, we
           believe that a two month time period is a better indicator that consistent child support
           payments will be made to the custodial parent.

           The ACF disagreed with our recommendation that the State self-assessment process
           should address the outcome of collection and distribution for TANF leavers. However,
           there is no other required mechanism that measures whether States are accurately
           distributing child support payments on a timely basis. The ACF also disagreed that all
           TANF leavers’ cases reviewed by States should be subject to a higher compliance rate for
           accurate disbursement of collections than the current 75 percent requirement. We believe
           that a 75 percent compliance rate is not a high enough standard of success for States to
           gauge their accuracy in distributing child support to all families, not just families leaving
           TANF.



Distributing Child Support to Families Exiting TANF        iii                                OEI-05-01-00220
                            TABLE                      OF               CONTENTS

                                                                                                                                PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


     States Pay Less in TANF Than They Collect in Child Support for Some Families. . . . . . . . . 7


     Custodial Parents Experience Delays and Underpayments . . . . . . . . . . . . . . . . . . . . . . . . . . 9


     Eleven States Report Transfer Difficulties . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


     CSEs Have No Systematic Oversight of Transfer in Most Case-Study States . . . . . . . . . . . 12


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


APPENDIX

  A. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22





Distributing Child Support to Families Exiting TANF                iv                                               OEI-05-01-00220
                                                INTRODUCTION


PURPOSE

           To evaluate the process State Child Support Enforcement agencies use to transfer child
           support to families leaving Temporary Assistance to Needy Families.


BACKGROUND

           The Child Support Enforcement program was created in 1975 with the addition of Part D
           to Title IV of the Social Security Act. State Child Support Enforcement (CSE) agencies
           are responsible for administering the program, including locating absent parents,
           establishing and enforcing orders, and collecting and disbursing the support due. The
           Federal Office of Child Support Enforcement (OCSE) contributes matching funds, sets
           requirements for certain design features, and monitors and evaluates State child support
           program implementation. The OCSE also provides State CSE agencies with technical and
           operational assistance to carry out program functions.

           In fiscal year (FY) 1999, State child support agencies had a total caseload of almost 16.4
           million cases. The national CSE caseload was comprised of 3.6 million current TANF or
           Foster Care recipients, 6.8 million former TANF or Foster Care recipients, and 6 million
           families who never received TANF or Foster Care assistance. Approximately 9.9 million
           of all cases had child support orders established. Just over 6.1 million cases had
           collections, and over $15.8 billion in child support payments were collected.
           Approximately 24 percent of current and 40 percent of former TANF or Foster Care
           recipients had collections.

Transfer of Child Support Payments

           When families apply for Temporary Assistance to Needy Families, Federal law requires the
           families to assign their rights to child support payments to the State and cooperate with
           child support enforcement efforts. According to a departmental report to Congress, one
           in four families leaving TANF have child support collected on their behalf while they are
           on TANF. By law, the “assignment” of child support to the State must end upon a
           family’s exit from TANF.

           When a family no longer receives TANF cash assistance, the TANF agency is required to
           notify the Child Support Enforcement agency of the change in status so that the CSE




Distributing Child Support to Families Exiting TANF   1                                OEI-05-01-00220
           agency can change payment distribution. The CSE agency is required to notify the family
           that child support services will continue and describe the State’s distribution policies. In
           the month following TANF exit, the State Disbursement Unit (SDU) must send support
           collections to the family within two business days of the initial date of receipt by the
           State.2

           According to the Personal Responsibility and Work Opportunity Reconciliation Act
           (PRWORA), States must annually assess the performance of their Child Support
           Enforcement program and report their findings and progress to the Secretary. To meet
           the requirements for State self-assessment, States must choose a sampling methodology
           that provides a picture of performance over a 12-month period. Federal regulations
           dictate that the States' self-assessments include review of their State Disbursement Units'
           success in distributing collected child support within two business days. A State must
           disburse collected payments within two business days of receipt for 75 percent of the cases
           reviewed.

Families Leaving TANF

           A substantial number of families have been exiting TANF in recent years due to welfare
           reform and other factors. The number of TANF recipients declined by 50 percent from
           January 1997 to June 2000. The PRWORA requires that States limit the time most
           families can receive cash assistance under the TANF program to 60 months. States have
           the option of allowing for a shorter time period, and some have adopted time limits as
           short as 24 months. In addition to the time limits, families leave the TANF rolls because
           of earned income, sanctions and voluntary withdrawal.

           The TANF agencies have structured processes for determining when a TANF cash
           assistance case is considered closed. Typically, TANF caseworkers enter a case closure
           reason into their automated system which automatically sends the TANF recipient a notice
           of the proposed action. A TANF recipient has 10 days to respond to the case closure
           notice before the automated system closes the case. In most States, TANF case closure is
           timed to occur immediately before the next TANF grant is due to be distributed.

Enhanced Need for Child Support

           The timely receipt of child support payments upon exit from TANF is critical to custodial
           families’ self-sufficiency in the first few months after TANF exit. Families may be most
           vulnerable during the period immediately following the end of their receipt of TANF
           assistance. The family may be adjusting to new arrangements, including changes in work,
           housing, daycare and transportation. Payment of child support at this juncture is likely to
           have a great impact on the success of the transition from TANF to self-sufficiency.
           Receipt of child support payments and the timely transfer of these payments




Distributing Child Support to Families Exiting TANF   2                                 OEI-05-01-00220
           from the State to the family plays an important role in ensuring that families do not return
           to the TANF rolls.

           After a custodial parent’s earnings, child support is the most important income source for
           poor, single female-headed families receiving child support. For these families, the child
           support amounts to an average of 26 percent of the family’s budget, or $2,000 per year.3
           When families headed by single mothers get at least some child support during the year,
           their poverty rate drops significantly, from 33 percent to 22 percent.4 According to one
           study, women who did not receive child support had a 31 percent chance of returning to
           welfare after 6 months off the rolls, while those who did receive monthly support had only
           a 9 percent chance of returning to the welfare rolls.5 In addition, child support is
           complimentary to work in that it helps increase single mothers’ labor force participation by
           stabilizing and supplementing low-wage earnings.

Child Support Distribution for Current TANF Recipients: Disregards/Pass­
throughs, Excess Collected Child Support and Zero TANF Grants

           Current Temporary Assistance to Needy Families recipients may receive some or all of the
           child support collected on their behalf. While PRWORA ended the requirement that
           States “pass through” or “disregard” up to $50 of collected child support to families
           receiving cash assistance, twenty-three States still pass through a portion of collected child
           support to TANF recipients. That is, in these States, up to $50 of child support is
           provided to the TANF recipients without counting the money as income against
           continuing TANF eligibility and benefits. Additionally, Federal waivers have been granted
           to some States to expand their disregard allocation. Wisconsin, for instance, provides the
           full amount of child support collected for most TANF recipients without impacting their
           TANF benefits or continuing eligibility.

           TANF recipients are also entitled to receive the amount of child support collected up to
           the obligated amount that exceeds the TANF grant when there are no unreimbursed
           arrears on their TANF account. States may also pass through excess child support to
           TANF recipients even if there are unreimbursed arrears. In these States, a TANF recipient
           may receive a portion of the collected child support that exceeds their TANF grant, up to
           the obligated amount of child support. This scenario happens most frequently in States
           that award lower than average grant amounts or when a TANF recipient is in “zero-grant
           status.” In some States, a client may be considered an active TANF cash assistance
           recipient, but receive a zero cash grant for one or more months. This usually occurs when
           the client receives a full TANF sanction or when his or her earned income reaches a level
           that bars further cash assistance without immediately ending eligibility.




Distributing Child Support to Families Exiting TANF   3                                  OEI-05-01-00220
Related Prior Office of Inspector General Work

           In a March 2000 Office of Inspector General (OIG) report entitled, “Client Cooperation
           with Child Support Enforcement,” OEI-O6-98-00042, child support and TANF agency
           staff indicated problems contacting one another to discuss cases. Although many local
           offices have access to automated interfaces between the two agencies, there are often
           problems with the interfaces such as system prohibitions on accessing certain necessary
           fields. The report indicated that staff of both child support and TANF agencies expressed
           frustration in trying to reach one another to discuss cases. Staff complained of
           unanswered telephones and unreturned calls from workers and managers of both agencies.


           In August 2000, the Inspector General released “Child Support Enforcement State
           Disbursement Units: State Implementation Progress,” OEI-06-00-00040. This study
           described States' experiences in developing and operating State Disbursement Units
           (SDUs). As of April 2000, 38 States and territories had SDUs that process payments for
           the Federally required caseload. Forty-nine States had or were planning to have
           automated telephone response systems to access such information as the last payment
           received on a case. Finally, 35 States track the percent of payments disbursed within 2
           business days of receipt, and 11 States reported that meeting this requirement was a
           continuing problem.

SCOPE AND METHODOLOGY

           This report examines the processes used by State Child Support Enforcement and TANF
           agencies to transfer current child support payments to custodial parents upon exit from
           TANF. We also examined the processes States use to distribute child support to current
           TANF recipients. All data collection occurred between February and April 2001.

           We focused our case file review on the transfer of support in paying cases. We did not
           examine TANF and CSE agencies’ enforcement efforts to collect support for families in
           non-paying cases.

           We collected data through the following four mechanisms:

           1.          Case file review of 145 TANF leavers with consistent child support collections,
           2.          Phone interviews with 26 of these TANF leavers,
           3.	         On-site interviews with administrative and casework staff from five State TANF
                       and CSE agencies, and
           4.          Fax survey of 51 State TANF and CSE agencies.

           We made onsite visits to five States — California, Colorado, Louisiana, Massachusetts
           and Washington — to conduct case file reviews and staff interviews. We selected our


Distributing Child Support to Families Exiting TANF    4                                  OEI-05-01-00220
           five case-study States based on TANF and child support caseloads and larger than average
           percent decline in their TANF population. In addition, we selected these States based on
           whether their TANF and/or CSE systems were State or county administered, as well as
           their geographic location.

Case-file Reviews

           To evaluate the efficiency and accuracy of States’ processes to disburse collected child
           support within the required 2 day time frame, we selected a sample of cases in Colorado,
           Louisiana, Massachusetts and Washington based on the following criteria:

                       C          The custodial parent’s TANF case closed in June 2000 and stayed closed in
                                  July, August and September.6
                       C          Child support payments were collected on the custodial parent’s behalf
                                  every month between January and June 2000.

           Based on these criteria, we randomly selected 30 cases to review in each State, with the
           exception of California.

           In California, which has county-administered child support and TANF systems, we chose
           to limit our evaluation to two counties. In each county, we reviewed 15 cases. In one
           county, staff were unable to provide us with the universe of all cases meeting our selection
           criteria from which to choose a random sample. The sample in this county, therefore, was
           not selected through the same methods and is not included in any weighted data presented.
           The total number of cases reviewed was 145. (Five cases were eliminated prior to our
           analysis because they did not meet the above-mentioned criteria.)

           For each sampled case, we examined the child support amount ordered, collected and
           distributed between January and December 2000. Through this review, we assessed
           whether the payments were distributed to the appropriate party in a timely manner and for
           the correct amount. Specifically, we determined the extent to which child support
           payments were disbursed to TANF leavers within the 2 day requirement. Two types of
           transfer errors can occur: 1) cases in which the first payment after exit is delayed; and, 2)
           cases in which the family never receives one or more payments owed to them after TANF
           exit, which are heretofore referred to as “underpayments.” We calculated the amount
           owed to these parents, as well as the amount of time they waited to receive their first full
           payments.

           In addition, we examined the payments made to custodial parents prior to June 2000,
           while they were TANF recipients. In all five case-study States, we determined whether
           custodial parents received TANF grants that were lower than the amount of obligated
           child support collected and examined the systems in place to distribute this “excess”
           collected support.




Distributing Child Support to Families Exiting TANF       5                                 OEI-05-01-00220
           We reviewed the case files in our sample on-site in both the State CSE and TANF offices
           on their respective automated case file systems.

           We stratified the sample by State within our universe defined as the four case-study States
           mentioned above and one California county. We weighted the sample in accordance with
           the sample design. Six hundred and nineteen cases in the four States and one county met
           our evaluation criteria.

Recipient Interviews

           In order to learn first hand about custodial parents’ experiences receiving child support
           after leaving TANF, we interviewed by phone 26 families randomly-selected from our case
           file sample. We interviewed five from each of four case-study States and six randomly-
           selected recipients (three in each county) from California.

Case-study Interviews

           To obtain information on the process used by the TANF and CSE agencies to distribute
           support in these cases, we interviewed State TANF and Child Support Enforcement policy
           staff responsible for oversight and guidance pertaining to this issue, as well as one TANF
           and one CSE caseworker in each of two local offices in each case-study State. In
           California and Colorado, which both have county-run child support systems, we also
           interviewed county-level CSE and TANF administrative and policy staff. In addition, we
           reviewed copies of relevant State and county policy guidance, education materials and
           TANF discontinuance and CSE continuation of services notices.

           We examined States’ automated processes for sharing information between the TANF and
           CSE agencies. We examined coordination between State agencies regarding the transfer
           of client information. We examined State policies regarding the education of this
           population.

Fifty-one State Survey

           We also conducted a 51-State survey (including Washington D.C.) of State Child Support
           Enforcement and TANF agencies. The intent of the survey was to determine State
           processes for ensuring timely disbursement of child support payments to TANF leavers.
           In particular, we gathered information regarding automated systems, case management,
           client education and inter-agency collaboration. We received 94 out of 102 (92 percent)
           surveys — 45 from State CSE agencies and 49 from TANF agencies.

           Our review was conducted in accordance with the Quality Standards for Inspections
           issued by the President’s Council on Integrity and Efficiency.




Distributing Child Support to Families Exiting TANF   6                                OEI-05-01-00220
                                                      FINDINGS

States Pay Less in TANF Cash Assistance Than They Collect
in Child Support for Some Current TANF Families
           All of the case-study States’ automated child support systems respond to the TANF
           agencies’ automated submission of case status changes. In such systems, only when case
           status changes in the TANF agency system is the CSE agency notified to redistibute
           collected support from the State to the custodial parent. If the TANF agency does not
           alert the CSE of TANF case closure, child support payments will continue to be
           distributed to the State.

           In some cases, however, TANF recipients have zero TANF grants due to working their
           way off TANF assistance and collecting earned income, or sanctions for non-compliance
           with a State TANF requirement. Other recipients may receive a TANF grant that is lower
           than the amount of collected obligated child support. Without State systems in place to
           either temporarily or permanently close a TANF case to distribute collected child support
           that exceeds the TANF cash grant, TANF recipients may accrue unnecessary months on
           their TANF lifetime clocks. Some of these families will lose the opportunity to receive a
           greater amount of assistance through their child support than through their TANF cash
           assistance. In effect, TANF recipients who are working their way off TANF may be
           worse off because they are neither receiving TANF cash assistance nor collected child
           support.

           Additionally, TANF recipients are entitled to all collected child support payments up to
           the obligation amount that exceeds their TANF grant when there are no unreimbursed
           TANF arrears (URA) on their accounts.7 While most TANF recipients have URA, States
           must have processes in place to accurately distribute payments to recipients who do not.

           In the case-study States, 12 of 145 TANF recipients had zero TANF grants for one or
           more months preceding TANF exit due to either earned income or a sanction. Both the
           TANF and CSE agencies considered these cases to be active TANF recipients, and the
           families did not receive child support collected on their behalf. Thirty-five TANF
           recipients had one or more months when their TANF grants were more than zero, but less
           than the amount of collected obligated child support.

           Automated systems in the case-study States are not designed to distribute excess collected
           child support, and States need to implement manual procedures for accurately handling
           these situations. Three case-study States have policies and procedures to close TANF
           cases when support exceeds the TANF grant, while two case-study States have no process
           to ensure that excess support will be distributed to clients.




Distributing Child Support to Families Exiting TANF      7                            OEI-05-01-00220
Three case-study States and one county rely on caseworkers to close TANF
cases when support exceeds the TANF grant

           Three case-study States and one county have policies to handle the closure of TANF cases
           when collected child support exceeds a family’s TANF grant. These States and county
           depend on TANF caseworkers to manually close TANF cases when excess support has
           been received for a specified amount of time. These systems do not require caseworkers
           to consider the amount of URA that exist on a recipient’s account before closing the case.
           These States have no specific review processes in place to certify that case closures are
           accurately occurring in this situation.

           In one case-study State, excess support is distributed to current TANF recipients on a
           monthly basis, regardless of unreimbursed arrears, and caseworkers are instructed to close
           these TANF cases when excess support has been collected for two consecutive months.
           Another State has procedures to close a case after excess support is collected for one
           month. The third State and the county require support to be collected for 2 months before
           a case may be closed. This process, however, results in a 3 month period of time during
           which a recipient could have avoided accruing time toward the lifetime TANF limit and/or
           could have received a greater amount of money through child support.

In one case-study State and one county, there are no processes to ensure excess
support is distributed

           One case-study State and one county do not have procedures in place to ensure that
           excess collected child support will be distributed to TANF recipients. One case-study
           State TANF agency considers regularly collected child support exceeding a recipient’s
           cash grant to be income, and reports that TANF caseworkers should close cash assistance
           in these situation. However, TANF staff in one of the county offices in this State reported
           that TANF caseworkers were not regularly reviewing collected child support. Further,
           county CSE administrative and caseworker staff report that the automated interface is not
           designed to alert TANF caseworkers of child support collections. These respondents also
           believed that TANF recipients were not entitled to excess support unless they did not have
           URA. In cases without URA, one CSE caseworker reported that excess support is held
           until TANF exit. In this county, 5 of the 14 case files reviewed (36 percent) had excess
           support, four of which occurred due to zero TANF grants.8

           In the other case-study State without a process regarding excess collected support,
           confusion among State policy staff regarding clients’ entitlement to excess support may
           account for the lack of a process to ensure accurate distribution. In this State, the TANF
           agency believes that the TANF case is automatically considered closed when there is a
           zero grant, while the CSE agency believes the case is open. In practice, if a TANF
           recipient has a zero grant, the CSE caseworker receives an “error message” and must call
           the TANF agency to follow up before the CSE system changes the TANF case status.
           Ultimately, State staff report that they rely on clients to request case closure when
           collected child support exceeds the TANF grant.



Distributing Child Support to Families Exiting TANF   8                                OEI-05-01-00220
After TANF Exit, Eight Percent of Custodial Parents in our
Case-Study States Experienced Delays and Three Percent
Were Underpaid
           In each of the five case-study States, we conducted case file reviews to determine whether
           child support payments are correctly distributed to families after TANF exit. According to
           Federal law, States have two business days after receipt of a payment to disburse the full
           amount of collected support to the custodial parent.9

           Eleven percent of custodial parents in the case-study States experienced delays and
           underpayments. Payment delays and underpayments ranged from 2 of 30 cases (7
           percent) in one State to 8 of 27 cases (30 percent) in another State. In 7 percent of the
           cases in our case-study States, the first payment after TANF exit was delayed for an
           average of 11 days. In an additional 3 percent of the cases, the first payment was never
           correctly distributed. These recipients waited an average of 23 days to receive any
           payment, and the States owe them an average of $84.80. In one county, 2 of the 14 (14
           percent) sampled custodial parents never received any child support payments after
           leaving TANF, and they are still owed an average of $499.50.

                                   Child Support Payment Errors After TANF Exit

                      State                    Universe Total       Total Cases    Percent Cases
                                                        Cases       with Delays or with Delays or
                                                        Reviewed    Underpayments Underpayments

                      State 1- county 1               n/a      14               4             28.57%
                      State 1- county 2                45      14               4             28.57%
                      State 2                          49      27               8             29.63%
                      State 3                          66      30               3             10.00%
                      State 4                         87       30               3             10.00%
                      State 5                         367      30               2               6.67%
                      UNWEIGHTED                      614     145              24             16.55%
                      TOTALS:
                      WEIGHTED                                                               10.94%
                      TOTAL:                                                              (+/- 5%)10
                                                                               OIG Collected Data

      NOTE: In assessing the number of payment errors in each State, we determined the date of the first
            child support payment received by the State from the non-custodial parent after the custodial
            parent had exited TANF. We counted cases in which this payment was disbursed after the 2
            day requirement or had never been correctly distributed to the custodial parent. To determine
            the number of days delayed, we examined each case in which the first payment after exit was
            sent to the custodial parent three or more business days after it was received by the State. We
            did not, however, subtract non-business days from the number of days delayed after the first 3
            days.




Distributing Child Support to Families Exiting TANF           9                                         OEI-05-01-00220
Nationally, Eleven States Report Difficulties Transferring
Child Support. Problems May Increase When Caseworkers
Must Intervene.
           Eleven of the 51 States surveyed (22 percent) cite difficulties accurately transferring child
           support payments to families who have left Temporary Assistance to Needy Families.
           Complications include problems with automated interfaces, incorrect client addresses,
           clients cycling on and off TANF, and caseworker intervention in the transfer process.

Most States Rely on Automated Interfaces to Transfer Child Support

           States use electronic interfaces to exchange case information between the State TANF and
           CSE agencies’ automated systems. Most States rely on automated information exchanges
           to distribute child support. Nationally, 73 percent of States’ systems interface on a nightly
           basis. Three of the five case-study States have automated systems that interface
           overnight, while one State’s interface occurs every 2 days and another occurs weekly.

           In four out of five case-study States, TANF case closures are electronically transmitted to
           the CSE automated system, which automatically changes recipients’ TANF status and
           redistributes subsequent child support payments to the custodial parent. In one case-study
           State, while the systems exchange information on a nightly basis, child support caseworker
           intervention is required to change a recipient’s TANF status on the CSE automated
           system.

Over One-Half of States Report Problems With Their Automated Interfaces

           Twenty-eight of the 51 States surveyed (55 percent) report problems with their automated
           interfaces. Flaws in a State’s automated interface may lead to distribution errors. States’
           problems included incompatibility between TANF and CSE automated systems, repeated
           system redesigns and frequency of automated information exchange. In one case-study
           State and one county, according to policy staff, design problems may contribute to
           incorrect distribution of child support. For instance, one county caseworker explained
           that the CSE system can only capture last names from the TANF interface. Consequently,
           when a child changes custody between individuals with the same last name, CSE continues
           to send support to the original custodial parent, rather than redistributing it to the
           currently-entitled recipient.

           In addition, State CSE automated systems typically track each family member in a case,
           while TANF agencies track cases by custodial parent. In some States, the CSE agency
           must be notified about a specific household member, in order to properly distribute child
           support. For example, in one case-study State with a “Family Cap” policy, children born
           to a current TANF recipient are not entitled to TANF, but are entitled to collected child




Distributing Child Support to Families Exiting TANF   10                                 OEI-05-01-00220
           support. The TANF caseworkers in this State report concern that distribution errors
           occur due to automated system glitches.

           The frequency of the automated information exchange may impact accurate payment
           disbursement. In one case-study State, the semi-monthly payment of TANF grants and
           weekly automated exchange of case closures between the State TANF and CSE agencies
           may create delays and cause incorrect disbursement of child support payments. In
           response, the State has developed an automated monthly reconciliation process between
           the State TANF and CSE automated systems. However, State TANF staff are concerned
           that clients still may have to wait up to one month before receiving a post-TANF child
           support payment. Three of the 30 cases reviewed (10 percent) in this State exhibited
           payment errors. Two of these custodial parents waited more than 3 months to receive
           their first payments and are still owed $315 and $420 respectively.

Incorrect client addresses and cycling on and off TANF may cause payment
problems

           Nationally, only three States (six percent) require child support caseworkers to update
           clients’ addresses at TANF exit. However, CSE agency respondents from an additional
           four States are concerned that recipient addresses are not updated adequately and view
           incorrect addresses as a large contributor to payment delays. One respondent believes
           that, “Not having current address information for the former TANF recipient is our
           [State’s] biggest challenge.” Thirty-nine State TANF agencies disburse cash assistance via
           Electronic Benefits Transfer (EBT), while most State CSE agencies disburse child support
           payments through paper checks. In a State with EBT, TANF recipients may have less
           incentive to regularly update their addresses than they would in a State that sends paper
           checks. In one case-study State that provides TANF grants via EBT and child support
           via paper checks, five of the eight cases with payment problems (63 percent) were caused
           by incorrect client addresses.

           In three States, respondents believe that recipients cycling on and off TANF may cause
           incorrect distribution of child support payments. In one State, TANF cases may be closed
           on any day of the month, and CSE policy staff report that their automated systems are
           unable to manage recipients’ frequent case openings and closings. Most other States
           report that their automated systems can respond accurately to frequent client status
           changes.

Reliance on Child Support caseworkers to transfer collected payments is
plausibly associated with increased payment error rates

           Nationally, five States, including one case-study State, require CSE caseworker
           intervention to redistribute collected child support payments from the State to custodial
           parents after TANF exit. Three of these States reported difficulty redistributing support
           to families who have exited TANF.




Distributing Child Support to Families Exiting TANF   11                               OEI-05-01-00220
           The case-study State with the highest percentage of delays and underpayments requires
           caseworker intervention to redistribute payments after TANF exit. In this State, the
           TANF agency transmits a file of all monthly case closures to the CSE agency on the last
           day of each month. This process triggers a list of clients to be sent to the appropriate CSE
           caseworkers on the first of each month.

           Caseworkers in this State must change the status of the clients who have left TANF by the
           third of the month in order to ensure that collected child support payments are accurately
           distributed. On the fourth of the month, the State CSE automated system generates an
           “exception report,” a list of cases for which TANF case status differs on the CSE and
           TANF automated systems. Collected support for these cases is put on hold until the
           TANF case status is reconciled.

           According to the staff in one local office in this State, in February 2001, there were 161
           cases with conflicting TANF status on their exception report, which indicates that
           caseworkers had not changed the status quickly enough to ensure accurate payment
           distribution. For the cases reviewed, we found that CSE caseworkers wait an average of
           six days after receiving notification to change clients’ TANF status.11 In this State,
           payments collected in the first few days of the month, which are supposed to be
           distributed to the TANF leaver, are likely to be delayed.12


Child Support Enforcement Agencies Have No Systematic
Oversight of the Transfer Process in Most Case-Study States
           According to the PRWORA, each State must assess annually the performance of its child
           support enforcement programs and report their findings to the Secretary. “...[T]he
           Federal government’s audit responsibilities now focus primarily on results and fiscal
           accountability while States are to focus on the responsibilities for child support service
           delivery in accordance with Federal mandates.” The OCSE will assist the States by
           providing “comments, recommendations for additional or alternative corrective action, and
           any technical assistance that a State may need.”13

           Under the final rule on State self-assessment, States must review whether their State
           Disbursement Units disburse collected child support within two business days.
           Specifically, States need only review the last payment made on each sampled case.
           Because distribution of support is not required to be examined over time, changes in
           distribution due to TANF case closure may not be captured. One case-study State auditor
           explained that, formerly, his State’s review process covered the last eight payments
           collected for each sampled case, which might catch distribution errors caused by changing
           TANF case status. Currently, with the implementation of State self-assessment
           procedures, the State is only required to review the disbursement of one payment.




Distributing Child Support to Families Exiting TANF   12                               OEI-05-01-00220
According to State child support policy staff in all five case-study States, there is
no policy requiring systematic review of TANF leavers’ child support distribution

           State CSE agencies are not required to specifically sample cases where TANF case status
           has changed. State self-assessments are not designed to catch inaccurate child support
           distribution when a client leaves TANF cash assistance. If a case is closed on the TANF
           automated system, and the CSE automated system does not capture this change, child
           support will continue to be distributed to the State. Thus, if selected for self-assessment,
           child support for these cases will appear to have been accurately distributed.

           Case-study States report that they rely on their internal fiscal audit processes and required
           self-assessment to ensure accurate collection and distribution. There are no explicit
           requirements, however, that self-assessments specifically cover collection and distribution
           for TANF leavers. Additionally, CSE State policy staff in the five case-study States report
           that child support caseworkers are not required to routinely review TANF leavers’
           accounts for this purpose.

Caseworkers’ account reviews in case-study States may not be sufficient

           Two case-study States have developed processes for caseworker review of TANF leavers’
           accounts. In one State, reviews occur at local office discretion, while the other State’s
           process only requires review of cases for which TANF case status differs on the CSE and
           TANF automated systems. Neither of these approaches ensures systematic oversight of
           all TANF leavers’ cases, and there is no State-level oversight to ensure the local reviews
           take place.

           In one of these case-study States, at the beginning of every month, the CSE automated
           system produces a list of the previous month’s TANF cash assistance leavers, which is
           distributed to local office administrators. Use of the lists to verify TANF exit occurs at
           the discretion of these administrators. The two local offices visited in this State have
           designed a review process to ensure that the automated system correctly changes the
           TANF case status and that child support payments are accurately distributed. In both
           offices, administrators deliver the lists to caseworkers, who must verify that the TANF
           case status is correct on the CSE automated system, as well as ensure that payments have
           been correctly distributed. However, local office staff do not verify that caseworkers
           complete these reviews.

           The automated system in the other case-study State requires child support caseworker
           intervention to change a TANF leaver’s status to ensure that collected support is
           accurately distributed. Because caseworkers may not make these changes in a timely
           manner, the State runs a monthly “exception report,” which catches cases with conflicting
           TANF case status on the CSE and TANF automated systems. Lists of these cases are sent
           to local CSE offices, where both administrative staff and caseworkers review them to
           make case status changes and distribution corrections if necessary.




Distributing Child Support to Families Exiting TANF   13                                OEI-05-01-00220
           This review process will not catch distribution errors that occur for reasons other than
           differing case status on the automated systems. In addition, neither the local office
           administrators, nor the State ensures that caseworkers conduct this verification. In
           addition, there is no policy that dictates how quickly caseworkers must make the
           necessary system changes. Consequently, custodial parents may wait weeks before
           receiving collected support payments.

Most case-study States rely on custodial parents to alert caseworkers of
distribution errors

           In four of the five case-study States, CSE caseworkers and policy staff report that families
           are responsible for ensuring they receive the correct amount of child support. In two
           case-study States, policy staff reported having a “customer-driven” account review
           process. Four case-study States review TANF leavers’ accounts only at parent request.

           Families may have difficulty fulfilling the responsibility of monitoring their accounts. State
           CSE agencies are required to provide TANF families with a monthly account report
           indicating support collection and distribution on their accounts. States may receive a
           waiver to provide this information on a quarterly basis or through an automated toll free
           number. In some case-study States, some parents reported difficulty understanding the
           monthly accounting forms. One parent reported difficulty understanding the accounting
           report forms because the collection and distribution payments codes were unclear, while a
           few other parents expressed confusion that may be related to their non-custodial obligor
           owing support to more than one custodial parent.

           In two case-study States, TANF caseworkers routinely call the CSE agency on behalf of
           their clients who have problems accessing information through the automated phone
           system. Client complaints about the CSE automated phone systems reported by State
           staff and families that we interviewed include frequent busy signals and complicated
           directions.

           Client complaints by type of problem are not collected by State child support agencies. In
           all case-study States, staff from both TANF and CSE agencies report that errors with child
           support distribution occur. However, States are unable to systematically report error
           frequency or if they were alerted to such problems from clients. In case-study States,
           CSE caseworkers handle between 240 to 980 cases and work cases on an as-needed basis.
           So, rather than call a specific CSE caseworker, recipients with problems or questions are
           directed to call a general number to report problems. Both CSE caseworkers and call
           center staff are required to enter casenotes into a client’s file when handling a parent’s call
           on behalf of his or her case. We found evidence in only two of 145 cases reviewed with a
           distribution or disbursement error that a parent had called to request assistance reconciling
           their case.

           Recent TANF leavers may also contact the TANF agency with child support complaints.
           Typically, TANF recipients are assigned a TANF caseworker with whom they have on-



Distributing Child Support to Families Exiting TANF   14                                  OEI-05-01-00220
           going contact. In contrast, once a child support case has been established and enforced,
           most clients have limited contact with the CSE agency. However, TANF agencies do not
           require their staff to record casenotes for closed cases and are also not able to report
           complaint type or frequency. Further, some TANF caseworkers report that they are not
           aware of the details regarding child support distribution policies and do not provide
           information about child support to their clients. The TANF caseworkers in three case-
           study States typically refer clients with child support related question to the CSE agency.




Distributing Child Support to Families Exiting TANF   15                               OEI-05-01-00220
                                 RECOMMENDATIONS

           The TANF caseloads have been rapidly decreasing in the last few years. In the next year,
           additional TANF recipients in all States will leave welfare as they reach their 5 year life-
           time limit. Recent TANF leavers face many challenges making a successful transition from
           welfare to self-sufficiency. Child support is an important income source for these low-
           income families. State child support agencies’ timely, accurate distribution of collected
           child support payments to recent TANF leavers plays a critical role in helping these
           families maintain self-sufficiency.

The Office of Child Support Enforcement and the Office Of
Family Assistance Should Work Together to Provide
Technical Assistance to the States to Improve State CSE and
TANF Agencies’ Automated System Interfaces’ Capacity to:
Share caseload information accurately, including:

           C           TANF case status,

           C           TANF grant amount, and 

           C           child support obligation and collected payment amount.


           States rely on electronic information exchanges between their TANF and CSE agencies’

           automated systems to accurately distribute collected child support. We found problems in

           the transfer of child support to TANF leavers and current TANF recipients in eleven

           percent of reviewed cases. Nationally, nearly one-third of States report problems with

           their automated interfaces. State automated systems do not always accurately share the

           information listed above, which likely causes payments to be missed, delayed or

           incorrectly distributed. 


Share caseload information efficiently by ensuring that:

           C           State TANF and CSE automated systems interface on a nightly basis.

           States must disburse collected child support within two business days. Not all systems
           automatically share case information nightly, which likely caused collected child support
           payment delays in reviewed cases.

Automatically redistribute collected child support

           C	          TANF case closures should automatically trigger redistribution of collected child
                       support from the State to TANF leavers without CSE caseworker intervention.




Distributing Child Support to Families Exiting TANF    16                                  OEI-05-01-00220
           We found that caseworker intervention in the transfer process may contribute to
           inaccurate payment distribution. Nationally, three of the five States that require
           caseworker intervention to redistribute child support payments report difficulty
           transferring support to families leaving TANF. The case-study State with the highest
           number of transfer errors also requires manual intervention.


In Order to Ensure Timely Disbursement of Collected
Support, the Office of Family Assistance and the Office of
Child Support Enforcement Should Encourage States to
Emphasize Address Verification and Child Support
Distribution Requirements In:
           1.          The TANF Discontinuation Notice,
           2.          The Child Support Continuing Services Notice, and
           3.          Monthly/Quarterly Collection and Distribution Notices.

           Specifically, these notices to families leaving TANF cash assistance should include:

           C           an address verification form to be returned by the TANF leaver to the State CSE
                       within 10 days of receipt,
           C           language emphasizing the importance of the State requirement to maintain a
                       current address, and
           C           notice that when collections are made, child support checks will be mailed within 2
                       days to the recipient’s home.

           Through our case file review and interviews, we found that the lack of a current address
           impacts State CSE agencies’ ability to disburse collected support within the 2 day
           requirement. While families are required to provide address changes to both the TANF
           and CSE agencies, most TANF agencies provide benefits through Electronic Benefits
           Transfer. As such, neither caseworkers, nor parents may currently focus on keeping
           addresses current, and families may not be regularly providing updated addresses to either
           the TANF or CSE agency. As families leave TANF, State CSE agencies must ensure that
           they have recipients’ updated addresses so that payments via U.S. mail are sent correctly.

           States are required to send families TANF discontinuation and child support continuing
           services letters at TANF exit. Written notices, unlike checks, can be forwarded to new
           mailing addresses and can serve as needed reminders to recent TANF leavers regarding
           their right to collected support and their responsibility to notify the CSE agency of new
           addresses in order to ensure timely collected payment receipt.




Distributing Child Support to Families Exiting TANF    17                                  OEI-05-01-00220
The Office of Family Assistance and the Office of Child
Support Enforcement Should Provide Technical Assistance
to the State TANF and CSE Agencies to Implement Policies
and Procedures for Handling Excess Support
TANF agencies and CSE agencies should be encouraged to redesign their
automated systems to:

           C           flag zero grant cases;
           C           accurately distribute collected child support that exceeds the TANF grant without
                       TANF or CSE caseworker intervention;
           C           automatically close TANF cases when excess support is collected for two
                       consecutive months; and
           C           retroactively reduce a recipient’s accrued months on TANF by one month for
                       every month in which excess support is collected.

           The TANF recipients are entitled to all collected child support payments that exceed their
           TANF grant, up to the obligation amount, when there are no unreimbursed TANF arrears.
           TANF recipients with collected support that equals or exceeds their TANF grants,
           regardless of URA, accrue unnecessary months against their TANF lifetime limit when
           they could be receiving a greater amount of assistance through child support.

           The TANF recipients may receive small TANF grants or zero grants as their earnings
           increase. The absence of policies to close cases or retroactively credit TANF recipients’
           time clocks actually may be a deterrent to work or to cooperation with child support
           enforcement efforts. States should reward, not penalize, TANF recipients who are
           working their way off TANF.

           In lieu of system redesign and/or while States are in the redesign process, TANF recipients
           should be informed that support in excess of their TANF grant has been collected and that
           they should contact their TANF caseworker to discuss possible case closure.

To Improve Accountability and Program Effectiveness, the
State Child Support Self-Assessment Processes Should
Address the Outcome of Collection and Distribution for
TANF leavers
For all cases sampled for review as part of the self-assessment process, State
CSE agencies should ensure that CSE automated systems are accurately
identifying closed TANF cases by:




Distributing Child Support to Families Exiting TANF    18                                 OEI-05-01-00220
           C	          Verifying that TANF case status is identical in both the CSE and TANF automated
                       systems.

           This practice will identify system discrepancies between State TANF and CSE automated
           systems and enable States, if applicable, to retroactively issue payments to custodial
           parents who did not receive their collected payments after TANF exit.

           C           Purposively sampling cases of TANF leavers.

           Current audit procedures in the States are not designed to catch errors in child support
           distribution to families who have recently left TANF. Distribution problems may arise
           when the TANF case closure notification process breaks down between the States’ TANF
           and CSE agencies. State CSE agencies may incorrectly distribute collected support to the
           State, and not the TANF leaver, either because they have not been properly notified of the
           case status change by the TANF agency, or because they have not accurately processed
           this information. In order to ensure accurate case status, purposive samples of TANF
           leavers must be drawn by the CSE agency from the TANF agency’s case status records.

Finally, all TANF leavers’ cases reviewed by States under the self-assessment
provision should be subject to a higher compliance rate than the current 75
percent requirement for accurate disbursement of collections.

           Current Federal regulation requiring a 75 percent rate for correct disbursement of child
           support collections is not sufficient for families exiting TANF. In order to reduce
           recidivism and help these vulnerable families remain off the TANF rolls and become self-
           sufficient, States must meet a higher level of compliance. The vast majority of these
           families should receive collected support within the two-day Federal requirement.

States Should Consider the Use of Special Improvement
Projects Grants to:

           1.          Facilitate Automated System Improvements, and
           2.          Enhance Consumer Education Initiatives.

           The Office of Child Support Enforcement annually invites States to submit competitive
           grant applications for special improvement projects which further the national child
           support goals and advance the provisions of the Personal Responsibility and Work
           Opportunity Reconciliation Act. States could access resources through these grants to
           make the needed changes outlined above.




Distributing Child Support to Families Exiting TANF   19                               OEI-05-01-00220
                                 AGENCY COMMENTS

           The Administration for Children and Families (ACF) reviewed this report and agreed with
           most of our findings and recommendations. Where appropriate, we changed the report to
           reflect their comments. The full ACF comments are contained in the Appendix.

           The ACF agreed with our recommendation that OCSE and OFA should work together to
           provide additional assistance to improve State agencies’ automated interfaces’ capacity.
           In addition, the ACF agreed that some of the findings and recommendations from this
           report could be included among the topics considered for Special Improvement Project
           grants in the future.

           The ACF agreed with the OIG’s recommendation that OFA and OCSE should provide
           technical assistance to State TANF agencies to implement policies and procedures for
           handling excess support. Further, ACF indicated that both OFA and OCSE should jointly
           engage in providing such assistance. We have made changes in our report to reflect the
           importance of joint agency efforts. The ACF expressed concern that State TANF systems
           would have to undergo significant changes in order to implement this recommendation.
           We maintain that TANF agencies should be encouraged to redesign their automated
           systems to ensure that excess support is managed appropriately.

           The ACF questioned why the waiting period of two months for automatic TANF closure
           was specified in our recommendation. While cases could be closed on a monthly basis, we
           believe that a two month time period is a better indicator that consistent child support
           payments will be made to the custodial parent. On the other hand, to wait a period of
           three months for closure unnecessarily depletes a recipient’s lifetime TANF benefit.
           Language incorporated in a draft version of this report did not mean to infer that excess
           child support should not be accurately distributed from the time of receipt.

           The ACF disagreed with our recommendation that the State self-assessment process
           should address the outcome of collection and distribution for TANF leavers. However,
           there is no other required mechanism that measures whether States are accurately
           distributing child support payments on a timely basis. Therefore, we believe that
           regulations should be changed to require that States use the self-assessment as a
           monitoring tool. Because TANF leavers are a small percentage of all cases, this
           monitoring should address the collection and distribution for TANF leavers through a
           purposive sample.

           The ACF also disagreed that all TANF leavers’ cases reviewed by States should be subject
           to a higher compliance rate for accurate disbursement of collections than the current 75
           percent requirement. We believe that a 75 percent compliance rate is not a high enough
           standard of success for States to gauge their accuracy in distributing child support to all
           families, not just families leaving TANF. To us it seems unacceptable that




Distributing Child Support to Families Exiting TANF   20                               OEI-05-01-00220
           States are able to inaccurately retain collected child support payments for 25 percent of
           families, yet still be considered compliant with Federal regulations. That would be
           comparable to saying that a business payroll process would be deemed successful even if
           25 percent of its employees were not paid on time.




Distributing Child Support to Families Exiting TANF   21                               OEI-05-01-00220
                                                                          APPENDIX

                                                      Agency Comments




Distributing Child Support to Families Exiting TANF         22          OEI-05-01-00220
                                                                         APPENDIX

                                                      Agency Comments




Distributing Child Support to Families Exiting TANF         23          OEI-05-01-00220
                                                                         APPENDIX

                                                      Agency Comments




                                                                                          P



Distributing Child Support to Families Exiting TANF         24          OEI-05-01-00220
                                                                          PENDIX A
                                                                         APPENDIX

                                                      Agency Comments




Distributing Child Support to Families Exiting TANF         25          OEI-05-01-00220
                                                      END NOTES


1.         45CFR302(b)(ii)


2.         45CFR302.32(2)(ii)


3.	        “Child Support Offers Some Protection Against Poverty,” Elaine Sorenson & Chava Zibman, Urban

           Institute, March, 2000.


4.         “What if All of the Money Came Home”, Vicki Turetsky, CLASP, March, 2000.


5.         Olivia Golden’s testimony before the Subcommittee on Human Resources, May, 2000.


6.         One State provided us with a universe of cases that closed in May 2000.


7.         Some States choose to distribute excess support even when URA exists for a recipient. 


8.         We did not record the amount of unreimbursed arrears on these accounts.


9.         Child support collected up to the obligated amount must be distributed to the client.


10.        The confidence interval was computed at the 90 percent level.


11.	       In one case, a client cycled on and off of TANF. The Child Support caseworker changed the status to

           non-TANF in May and never changed it back to TANF. This case was dropped from this calculation, so

           the average is based on 26 cases.


12.	       This statement takes into consideration that some payments received by the State in the beginning of a

           month are collected from non-custodial parents the previous month and should be credited to the State.


13.        45 CFR Part 308





Distributing Child Support to Families Exiting TANF        26                                        OEI-05-01-00220
